DEPARTMENT OF HOMELAND SECURITY

              Office of Inspector General


                Disaster Recovery Planning for
                  DHS Information Systems
                     Needs Improvement
                          (Redacted)




Notice: The Department of Homeland Security, Office Inspector General, has redacted this
report for public release. The redactions are identified as (b)(2), comparable to 5 U.S.C. §
552 (b)(2). A review under the Freedom of Information Act will be conducted upon request.




             Office of Information Technology
                                                                    May 2005
   OIG-05-22
                                                                        Office of Inspector
                                                                        General

                                                                        U.S. Department of
                                                                        Homeland Security
                                                                        Washington, DC 20528




                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared by the OIG as part of its DHS oversight responsibilities to
promote economy, effectiveness, and efficiency within the department.

This report addresses the strengths and weaknesses of the DHS Information Technology
disaster recovery program. It is based on interviews with employees and officials of
relevant agencies and institutions, direct observations, and a review of applicable
documents.

The recommendations herein have been developed to the best knowledge available to the
OIG, and have been discussed in draft with those responsible for implementation. It is our
hope that this report will result in more effective, efficient, and economical operations.
We express our appreciation to all of those who contributed to the preparation of this
report.




                                             Richard L. Skinner
                                             Acting Inspector General
Contents


  Introduction.................................................................................................................. 3

  Executive Summary ..................................................................................................... 4

  Background .................................................................................................................. 4

  Results of Audit ........................................................................................................... 7

          Disaster Recovery Sites Are Inadequate............................................................. 7

          Disaster Recovery Documentation Needs Improvement.................................. 13

          DHS Does Not Have an Enterprise-Wide Disaster Recovery Program ........... 14

  Recommendations....................................................................................................... 16

  Management Comments and Our Evaluation ............................................................. 16


Appendices
  Appendix A:            Purpose, Scope, and Methodology .................................................... 18
  Appendix B:            Management’s Response.................................................................. 20
  Appendix C:            DHS Facilities Reviewed ................................................................. 23
  Appendix D:            Disaster Recovery Planning Documents Reviewed ......................... 25
  Appendix E:            Major Contributors to This Report................................................... 30
  Appendix F:            Report Distribution........................................................................... 31


Abbreviations
  BTS                            Border and Transportation Security
  CBP                            Customs and Border Protection
  CIO                            Chief Information Officer
  Coast Guard                    United States Coast Guard
  COOP                           Continuity of Operations
  DCC                            Data Center Consolidation
  DHS                            Department of Homeland Security
  DHS Management                 DHS Management Directorate
  EIB                            Enterprise Infrastructure Board
  FEMA                           Federal Emergency Management Agency

                               DHS Disaster Recovery Planning Needs Improvement


                                                           Page 1
Contents

 FLETC              Federal Law Enforcement Training Center
 FPC                Federal Preparedness Circular
 ICE                Immigration and Customs Enforcement
 IAIP               Information Analysis and Infrastructure Protection
 IT                 Information Technology
 IV&V               Independent Verification and Validation
 NIST               National Institute of Standards and Technology
 OIG                Office of Inspector General
 OMB                Office of Management and Budget
 SP                 Special Publication
 Secret Service     United States Secret Service
 TSA                Transportation Security Administration




                  DHS Disaster Recovery Planning Needs Improvement


                                       Page 2
OIG
Department of Homeland Security
Office of Inspector General



Introduction
                          The Department of Homeland Security (DHS) relies on a variety of
                          critical Information Technology (IT) systems and technologies to
                          support its wide-ranging missions, including counter-terrorism,
                          border security, and infrastructure protection. DHS IT systems also
                          allow employees to communicate internally and for the American
                          public to communicate with the department. DHS must be able to
                          recover its IT systems quickly and effectively following a service
                          disruption or disaster in order to continue performing these mission
                          essential functions. This audit focused on DHS’ acquisition and
                          management of disaster recovery alternate facilities for its critical
                          IT systems.

                          The Office of Inspector General (OIG) audited the IT disaster
                          recovery capabilities for 19 DHS facilities, which were connected
                          to the DHS network backbone.1 The objective of this audit was to
                          evaluate the effectiveness of DHS’ acquisition and management of
                          disaster recovery alternate facilities for the support systems
                          processed at selected facilities. Facilities selected for this audit
                          represented each of the DHS components,2 with the exception of
                          the Science and Technology Directorate3 and the United States
                          Citizenship and Immigration Services.4 Audit fieldwork was
                          performed in the Washington, DC area, and at several DHS
                          locations around the country. See Appendix A for a discussion of
                          our purpose, scope, and methodology.

1
  The ‘backbone’ is DHS’ top-level, high-speed, data transmission telecommunications network. It serves
as the major access point for telecommunications networks of DHS components.
2
  DHS ‘components’ are its directorates, including organizational elements and bureaus, and critical
agencies.
3
  While the Science and Technology Directorate had facilities attached to the DHS network backbone, these
facilities did not have significant IT assets and were not included in the audit scope.
4
  The United States Citizenship and Immigration Services was not responsible for a facility attached to the
DHS network backbone in November 2003.

                           DHS Disaster Recovery Planning Needs Improvement


                                                  Page 3
Executive Summary
             DHS IT disaster recovery sites were not prepared to prevent
             service disruptions from potentially hindering DHS’ ability to
             perform mission essential functions. Specifically, 15 of the 19
             (79%) facilities reviewed did not have a recovery site - or the
             recovery site was not fully operational. Additionally, while 4 of the
             19 (21%) facilities had fully operational disaster recovery sites,
             tests at those facilities revealed deficiencies that could adversely
             impact recovery of critical IT systems. The inability to restore
             DHS’ critical IT systems following a disaster could have negative
             effects on the performance of mission essential functions. These
             potential effects include a disruption in passenger screening
             operations, delays in processing grants in response to a disaster,
             and delays in the flow of goods across U.S. borders.

             Additionally, we evaluated the adequacy of disaster recovery
             planning documents such as continuity of operations and
             contingency plans. We identified deficiencies in 25 of the 31
             (81%) documents reviewed. Thirteen of the 31 (42%) planning
             documents had not been finalized.

             These problems with disaster recovery are occurring in part
             because DHS does not have a program in place to provide an
             enterprise-wide disaster recovery solution. However, DHS’ Chief
             Information Officer (CIO) is studying the consolidation of the
             department’s data centers. This effort could be used to provide the
             basis for an enterprise-wide disaster recovery capability.

             We are recommending that the CIO: (1) allocate funds needed to
             implement an enterprise-wide disaster recovery program for
             mission critical systems; (2) require that disaster recovery
             capabilities are included in the planning and implementation of
             new systems; and (3) require that disaster recovery-related
             documentation for mission critical systems be completed and
             conform to current government standards.
Background
             DHS’ mission includes protecting the American people and their
             homeland from terrorist attacks, reducing the vulnerability to
             terrorism, and mitigating the damage resulting from disasters,
             whether man-made or natural. IT assets at DHS facilities around


             DHS Disaster Recovery Planning Needs Improvement


                                  Page 4
the country support these missions. DHS must have a disaster
recovery capability in order to prevent minor disruptions or major
disasters from affecting its ability to perform essential services.

IT systems can experience disruptions due to inherent
vulnerabilities, such as disk drive failures or as the result of an
external threat. However, even a minor disruption could become a
major problem without adequate backup and recovery capability.
For example, a recent problem with a private sector company’s
database application, combined with a manual backup system,
resulted in the cancellation of hundreds of flights and disrupted the
plans of thousands of traveling passengers.

The chance that a disruption may occur can be reduced through the
implementation of compensatory technical or managerial controls.
However, IT systems also face the risk of a service disruption
caused by natural and man-made events that cannot be controlled.
When there is a disruption, DHS must be able to recover its
mission essential IT systems as quickly as possible. Restoring IT
systems may require relocating to an alternate site if the original
facility is destroyed, as occurred in the 1995 bombing of the Alfred
P. Murrah Federal Building in Oklahoma City and the terrorist
attacks on September 11, 2001. Relocating to an alternate site may
be necessary if the primary facility is rendered inaccessible, as
occurred when legislative and postal facilities were contaminated
during the anthrax bio-terrorism attacks of 2001. Disaster recovery
planning includes identifying an alternate facility that is capable of
operating those IT systems if the original facility cannot be used.

Additionally, depending on the threat, the identified alternate site
must be at a reasonable distance from the original facility. For
example, facilities that could be subject to terrorist activities may
require an alternate facility outside the metropolitan area. Facilities
that are at high risk from natural disasters, such as hurricanes and
earthquakes, may need an alternate facility outside their
geographic region.

It is the policy of the United States to have in place a
comprehensive and effective program to ensure continuity of
essential federal functions under all circumstances. To support this
policy, the federal government has implemented the Continuity of
Operations (COOP) Program. Today’s changing threat
environment and the potential for no-notice emergencies, including
localized acts of nature, accidents, technological emergencies, and

DHS Disaster Recovery Planning Needs Improvement


                     Page 5
military or terrorist attack-related incidents, have increased the
need for COOP capabilities and plans that enable agencies to
continue their essential functions across a broad spectrum of
emergencies. Responsibility for formulating guidance on these
plans and for assessing executive branch capabilities lies with
DHS’ Emergency Preparedness and Response component and its
Federal Emergency Management Agency (FEMA). This guidance,
Federal Preparedness Circular (FPC) 65, Federal Executive Branch
Continuity of Operations (COOP), was reissued by FEMA in June
2004.

FPC 65 provides guidance on the selection of an alternate facility
and requires that federal departments identify their essential
functions as well as the IT systems necessary to perform these
functions. Additionally, FPC 65 defines various elements which
must be in a viable departmental COOP capability including:

   •     Implementation without warning;
   •     Operational within 12 hours of COOP activation;
   •     Regularly scheduled testing, training, and exercising of
         agency personnel, equipment, systems, processes, and
         procedures used to support the agency during a COOP
         event; and
   •     Consideration of the distance of the alternate operating
         facility from the primary facility.

Other government-wide guidance in this area is included in the
Office of Management and Budget (OMB) Circular A-130,
Management of Federal Information Resources. OMB Circular A-
130 establishes a minimum set of controls to be included in federal
automated information security programs, including the need to
establish and periodically test the capability to continue providing
service following a disruption to the IT system. OMB Circular
A-130, at page 12 of Appendix III, emphasizes the need to test
recovery plans:

       “Experience has shown that recovery plans that
       are periodically tested are substantially more viable
       than those that are not. Moreover, untested plans
       may actually create a false sense of security.”

Additionally, the National Institute of Standards and Technology’s
(NIST) special publication 800-34, Contingency Planning Guide
for Information Technology Systems, provides guidance on what

DHS Disaster Recovery Planning Needs Improvement


                      Page 6
                information should be in a contingency plan, and recommends that
                backup media should be stored off-site in a secure,
                environmentally-controlled location. NIST SP 800-34 also notes
                that the performance of a business impact analysis is a key step in
                the contingency planning process. This analysis helps to correlate
                specific system components with the essential services that they
                provide; and to characterize the consequences of a disruption to the
                system components on those essential services. The disruption
                impacts and allowable outage times identified help to determine
                the most cost-effective backup and recovery process for the
                system.

                Also, DHS provides disaster recovery guidance to its components
                in its Sensitive Systems policy publication 4300A, Information
                Technology Security Program. This DHS-wide guidance for
                implementing disaster recovery procedures expands on FPC 65 and
                OMB Circular A-130 testing guidance by requiring that DHS
                components develop and maintain disaster recovery plans and that
                these plans be tested/exercised annually. DHS 4300A also provides
                broad guidance on the storage of backup tapes.

Results of Audit
  Disaster Recovery Sites Are Inadequate
                The disaster recovery sites for the reviewed DHS facilities were
                either not available, not fully operational, or had identified
                deficiencies (See Appendix C, DHS Facilities Reviewed, for
                details). The disaster recovery sites for all 19 facilities lacked
                adequate capabilities to prevent service disruptions from
                potentially affecting DHS’ ability to either respond to a threat or to
                mitigate the effects of a disaster. Specifically, there was no
                identified recovery site for six of the 19 (32%) selected facilities.
                At these six facilities there were a total of 383 servers and nine
                mainframe systems.

                DHS components also placed reliance on disaster recovery sites
                that were not fully operational at nine of the 19 (47%) facilities.
                There were a total of 500 servers at these nine facilities. These
                alternate sites were not fully operational because they did not have
                all the resources necessary to recover the functions at the original
                facility.



                   DHS Disaster Recovery Planning Needs Improvement


                                        Page 7
                           Additionally, only four of the 19 (21%) facilities, consisting of a
                           total of eight mainframe systems and 390 servers, had operational
                           disaster recovery sites and tested their disaster recovery planning.
                           The disaster recovery testing at these four operational recovery
                           sites revealed deficiencies that could adversely impact recovery of
                           critical systems.

                           DHS must be able to provide mission essential services with
                           minimal disruption following a disaster. DHS recovery sites must
                           be able to restore promptly the critical IT systems supporting these
                           services. Without an adequate disaster recovery capability, a
                           minor disruption or major disaster may affect DHS’ ability to
                           perform essential services.

                           The impact on DHS of a disaster at one of these 19 facilities is
                           dependent upon the duration of the failure and the importance of
                           the IT systems operating at that facility. For example, if the facility
                           contained mission critical systems, damage or destruction to those
                           systems could have a debilitating impact on the ability of DHS to
                           perform its essential functions and activities.

                           Component A5

                           Component A was responsible for two of the facilities without an
                           identified disaster recovery site. The inability to access critical
                           applications running on the 228 servers and nine mainframes at
                           these Component A facilities could adversely impact security
                           operations (b)
                                        (b)
                                       ------------------------- ------------, or delay recovery and
                           coordination efforts to respond to an incident.

                           Component A is using a managed services contract to provide IT
                           services. This contract could be used to provide a disaster recovery
                           capability for these two facilities; however, Component A does not
                           have the funds available to task the contractor with providing this
                           service. According to Component A officials, funding was not
                           provided because of agency-wide funding issues. Component A
                           officials also said that there was a requirement that the alternate
                           site be part of the DHS data center consolidation project. However,
                           the CIO’s office has not provided guidance to the components on
                           construction of alternate sites or a schedule of when the
                           consolidated data centers would be available.
5
 The Department of Homeland Security, Office Inspector General, has redacted the names of specific
components from this report for public release. The redactions are identified as (b)(2), comparable to 5
U.S.C. § 552 (b)(2). A review under the Freedom of Information Act will be conducted upon request.

                            DHS Disaster Recovery Planning Needs Improvement


                                                   Page 8
A third Component A facility with four servers did not have a fully
operational disaster recovery site. Recovery plans for these critical
IT systems identify a remote Component A facility as the alternate
site. However, the identified site does not have all the equipment
necessary to act as a fully operational disaster recovery site. An
extended disruption in the operation of the IT systems at this
facility could hinder the performance of some of Component A’s
mission essential functions.

Component B

A Component B facility with 32 servers did not have an identified
alternate site. While this deficiency has been reported to
Component B’s management, additional funds had not been
provided to acquire a disaster recovery site. This facility is located
in a geographic region subject to natural disasters. An inadequate
disaster recovery capability could hinder Component B’s ability to
respond effectively to a demand for assistance in the disaster area.

Furthermore, Component B was responsible for two additional
facilities that did not have fully operational disaster recovery sites.
The larger of these two Component B facilities, with 200 servers,
has a signed lease for an alternate disaster recovery site. However,
as of April 2004, the implementation plan for this capability had
not been deployed or tested. Additionally, the alternate site for the
smaller facility, with 41 servers, is another Component B facility.
Again, the disaster recovery plans to implement this capability
have not been prepared or tested. A significant disruption in the
operation of the IT systems at either facility may hinder the
                                                  (b)(b)
performance of mission essential activities,------         - ------ ------ -
(b)
(b)
----------------------------------- -----------------------------------

Component C

We, and our independent verification and validation (IV&V)
contractor, observed a disaster recovery test for a facility that
contained six mainframes and 180 servers. While Component C
was able to restore operations, the recovery time for one critical
system did not meet the requirement established in the business
impact analysis. The minimal recovery time for this system was
exceeded due to the time required to transfer backup tapes from
Component C’s tape storage facility to the recovery site, combined
with the time required to restore the system with the tape backups.

 DHS Disaster Recovery Planning Needs Improvement


                      Page 9
                                    Component C was testing a data replication methodology as a
                                    potential solution to this deficiency.

                                    Other deficiencies existed that were related to Component C’s use
                                    of a commercial facility for recovery purposes. Specifically,
                                    Component C personnel were pre-positioned at the recovery site
                                    before the test began. Pre-positioning personnel ensured that all
                                    critical staff were available for the scheduled test and enabled
                                    Component C to meet recovery goals by reducing the recovery
                                    time by several hours that would have been needed for travel.
                                    Component C informed us that it could not perform an
                                    unscheduled recovery test due to the need to schedule the test
                                    times with the vendor.

                                    Additionally, Component C’s contract for this commercial facility
                                    only allowed a set period of time for testing. When this scheduled
                                    time elapsed, Component C had not completed all activities
                                    associated with removing data from storage devices. Component C
                                    then relied on the vendor to complete the data removal process.
                                    Component C has taken steps to ensure that, in future tests, the
                                    data removal process will be completed before Component C
                                    leaves the facility.

                                    Potential effects associated with an extended outage of the IT
                                    systems running at the Component C facility include a disruption
                                                                                   (b)
                                    to the enforcement of laws governing-----------------------------------
                                                                                                  (b)



                                    (b)
                                    ------------------------------------- ----------------------------------
                                    (b)




                                    ---------- - and excessive overtime. A disruption in processing
                                    (b)




                                    capability also could impact non-Component C users of these
                                    systems, including the private sector, (b)     ------------ ------------ --------
                                                                                                 (b)



                                    (b)
                                     (b)
                                    ------------- ----------------------- ----------------------------- , as well as
                                    other DHS components and federal agencies.

                                    Component D

                                    Component D was responsible for three facilities, containing a
                                    total of 123 servers, which did not have an identified disaster
                                    recovery site. Component D is working to identify an alternate site
                                    and to provide the required resources for an adequate backup and
                                    recovery capability for its critical systems. Failure of identified IT
                                    equipment at these facilities could inhibit the ability of DHS
(b)
------------------------------------
-
(b)
 -- --- ---------- --- - - - - ---- --- - ----- -- - - - - - --- - ---- - ----------- -- -- - --- - - - - - ------ - -- -- -- ----- ---
-- ---- --- - - - -- - --

                                     DHS Disaster Recovery Planning Needs Improvement


                                                                   Page 10
employees to perform mission essential functions or to
communicate within DHS and with outside stakeholders.

Component D also used a contractor-owned facility that contained
97 servers. Not all of the IT systems operating at this facility had
backup and recovery capabilities. During OIG fieldwork,
Component D took action to acquire and equip a separate DHS
location to provide for a fully operational disaster recovery
capability. Access to DHS internet and intranet sites could be
restricted if a service disruption occurred at this facility before a
fully functioning alternate site is implemented.

Component E

A Component E facility contained 97 servers and two mainframes.
Component E tested its disaster recovery plans in conjunction with
the government-wide COOP exercise, Forward Challenge 04, in
May 2004. As a result of this effort, Component E identified a
shortfall of IT assets and has been acquiring the necessary
equipment to remedy the deficiency. Additionally, Component E
has undertaken efforts to acquire a recovery site that is at a more
appropriate distance from its operating facility. An inadequate
disaster recovery capability may delay or prevent Component E
from carrying out its mission functions efficiently or effectively
during a major catastrophe.

Component F

Component F is responsible for a facility with 94 servers and is in
the process of acquiring the use of a more distant disaster recovery
site. Component F had tested recovery plans and noted a need for
higher speed communication lines. Following our IV&V
contractor’s review of this component’s disaster recovery training,
testing, and exercise documentation, the contractor rated this
facility a Center of Excellence. The contractor cited the
identification and training of emergency personnel, the disaster
planning processes, the performance of risk assessments, and the
inclusion of state and local responders in a recovery exercise as the
basis for this rating.

A second Component F facility with 50 servers did not have a fully
operational disaster recovery site. Recovery plans for these critical
IT systems identify remote Component F facilities as the alternate
sites. However, the identified sites do not have all the equipment

DHS Disaster Recovery Planning Needs Improvement


                    Page 11
necessary to act as a fully operational disaster recovery sites. An
extended disruption in the operation of the IT systems at this
facility could hinder the performance of some of Component F’s
mission essential functions.

Component G

Component G was responsible for two facilities that did not have
fully operational disaster recovery sites. Component G plans to use
an unfurnished DHS facility as an alternate site for one facility
with 14 servers. However, Component G is in the process of
preparing and equipping this DHS facility to serve as a fully
operational recovery site.

A second Component G facility was contractor-owned, contained
35 servers, and did not have a fully operational alternate site. Not
all the functions of this second Component G facility could be
restored at the Component G contractor’s disaster recovery site.
Additionally, Component G had not identified the funds necessary
to equip this recovery site adequately, or to task the contractor with
providing all the necessary recovery services. The two Component
G facilities contain IT systems, which cannot experience a
significant disruption in their operation without hindering the
performance of some of Component G’s mission essential
functions.

Component H

Component H was responsible for one facility with 14 servers that
did not have a fully operational disaster recovery site. Component
H plans on using a remote facility as a recovery site. Currently, the
identified site does not have all the equipment necessary to act as a
fully operational disaster recovery site. However, Component H is
augmenting this site as funds and resources become available. An
extended disruption in the operation of the IT systems at
Component H’s facility could hinder the performance of some of
its mission essential functions.

Component I

Component I was responsible for one facility with 45 servers that
did not have a fully operational disaster recovery site. Component I
plans on using a remote facility as a recovery site. Currently, the
identified site does not have all the equipment necessary to act as a

DHS Disaster Recovery Planning Needs Improvement


                    Page 12
             fully operational disaster recovery site. Component I may be able
             to function for an extended period of time without the
             administrative IT systems operating at its facility.

             Component J

             Component J, responsible for a facility with 19 servers, had
             performed a successful COOP exercise in July 2004 but identified
             the need for additional data storage and connectivity
             improvements. Some of the identified improvements, however,
             will not be implemented until the component relocates to a new
             facility in the third quarter of fiscal year 2005.

Disaster Recovery Documentation Needs Improvement
             We reviewed disaster recovery related planning documents, in
             particular, the components’ COOP and contingency plans. A
             significant number of the planning documentation did not contain
             current or required information. In particular, the components had
             not finalized 13 of the 31 (42%) planning documents reviewed,
             and 25 of the 31 (81%) documents had deficiencies. The results of
             the documentation review are summarized below in Table 1,
             Summary of Disaster Recovery Planning Documents Reviewed.

                Table 1: Summary of Disaster Recovery Planning Documents
                                       Reviewed

                                                         Number
                                                         That       Number
                              Number         Number      Comply     With
                              Reviewed       in Draft    With FPC   Identified
                                                         65 or      Deficiencies
                                                         NIST SP
                                                         800-34
             COOP Plans       10             3           7          4
                                             (30%)       (70%)      (40%)
             Contingency      21             10          13         21
             Plans                           (48%)       (62%)      (100%)
             Total            31             13          20         25
                                             (42%)       (65%)      (81%)

             See Appendix D, DHS Disaster Recovery Planning Documents
             Reviewed, for details.


              DHS Disaster Recovery Planning Needs Improvement


                                   Page 13
             Adequate COOP and contingency plans provide DHS management
             with some assurance that mission essential functions will be
             performed despite a disruption in operations. Without adequate
             disaster recovery documentation, DHS may not be able to restore
             critical IT systems supporting those functions within required time
             frames.

             We reviewed the 10 COOP plans to determine if they complied
             with FPC 65. Six of the 10 (60%) COOP plans were not accurate
             or current or did not contain required information, such as an
             inventory of critical IT systems. Adequate COOP plans are
             required to ensure the continued performance of mission essential
             functions under all circumstances.

             Additionally, we reviewed contingency plans for IT systems to
             determine if they complied with NIST SP 800-34. Just over half of
             the contingency plans complied with the NIST format and
             contained the recommended information. We reviewed the
             contingency plans to determine whether they could serve as a
             template to execute the recovery strategy for the IT systems in the
             event of a disruption. Deficiencies existed in all the contingency
             plans reviewed. For example, while NIST SP 800-34 recommends
             that the business impact analysis be performed and included in the
             contingency plan, only one such analysis was performed. Without
             performing this analysis, there is no guarantee that the recovery
             strategy employed will ensure that critical systems are restored
             within required time frames.

DHS Does Not Have an Enterprise-Wide Disaster Recovery Program
             DHS has not implemented a DHS-wide program to coordinate and
             upgrade the disaster recovery capability for its critical IT systems.
             The disaster recovery program was inadequate at each of the
             facilities reviewed. Further, the DHS components responsible for
             those facilities are trying to resolve identified IT disaster recovery
             deficiencies at the component level even though several of the
             components have not been able to identify the funds or resources
             necessary to implement an adequate disaster recovery capability.
             Disaster recovery weaknesses at all DHS components may not be
             resolved fully until implementation of an enterprise-wide disaster
             recovery solution.

             The CIO had taken some actions to implement a DHS-wide
             disaster recovery solution prior to the start of this audit. First, the

              DHS Disaster Recovery Planning Needs Improvement


                                  Page 14
CIO formed the Enterprise Infrastructure Board (EIB) and
chartered this board with several infrastructure consolidation
initiatives to meet the vision of “One Network, One Infrastructure,
One DHS.” The EIB produced a draft in October 2003, Roadmap
to One DHS IT Infrastructure Version 1. According to this
document, DHS will integrate, consolidate, and transform diverse
infrastructures into one to create and implement a world class IT
infrastructure.

Second, the CIO created the DHS Data Center Consolidation
(DCC) project to support the DHS IT infrastructure roadmap. The
DCC project planned to provide DHS with two geographically-
separate data centers where all existing and future computing
infrastructure could be located. The two planned data centers were
to provide mirror computing (duplicate computing resources) at
each center. This plan would ensure that each center would have
full operational capability to support all data processing
requirements should the other data center fail. Further, the CIO
created the DCC working group to survey DHS’ legacy data
centers and request information concerning the size of the data
centers and disaster recovery capability. The group’s efforts have
been incorporated into DHS’ Infrastructure Transformation Office,
which is responsible for achieving the agency-wide goal of one
infrastructure.

The Infrastructure Transformation Office has developed a program
to transition the IT infrastructures of the individual DHS
components into an integrated infrastructure. However, this
program has not made the consolidation of DHS’ data centers a
high priority. As a result, the CIO has not informed the
components when a consolidated data center will be available to
perform disaster recovery activities.




DHS Disaster Recovery Planning Needs Improvement


                    Page 15
Recommendations
             We recommend that the DHS CIO:

             Recommendation 1: Allocate the funds needed to implement an
             enterprise-wide disaster recovery program for mission critical
             systems.

             Recommendation 2: Require that disaster recovery capabilities
             are included in the planning and implementation of new systems.

             Recommendation 3: Require that disaster recovery-related
             documentation for mission critical systems be completed and
             conform to current government standards.


Management Comments and Our Evaluation
             We obtained written comments on a draft of this report from DHS.
             We have incorporated the comments where appropriate and
             included a copy of the comments in their entirety as Appendix B.
             DHS generally agreed with each of our recommendations. Below
             is a summary of DHS’ response to each recommendation and our
             assessment of the response.

             Recommendation 1: Allocate the funds needed to implement an
             enterprise-wide disaster recovery program for mission critical
             systems.

             The DHS Office of the CIO agrees that additional funding could be
             applied toward the development of an enterprise-wide disaster
             recovery program for mission critical systems. The report
             recognizes the efforts of the DHS Infrastructure Transformation
             Office, which is analyzing DHS data centers to determine the most
             effective and efficient way to provide these capabilities. This
             effort will also incorporate a DHS-wide disaster recovery program.

             We accept DHS’ response to incorporate a DHS-wide disaster
             recovery program as part of the Infrastructure Transformation
             Office’s efforts. However, DHS has not identified the additional
             funds that might be applied to this effort or how soon a suitable
             DHS disaster recovery alternate facility may be acquired.




             DHS Disaster Recovery Planning Needs Improvement


                                 Page 16
Recommendation 2: Require that disaster recovery capabilities
are included in the planning and implementation of new systems.

The DHS Office of the CIO concurs. In its comments, the DHS
Office of CIO states that the report correctly concludes that there is
a lack of readiness amongst DHS operational elements concerning
IT disaster recovery capability and protocols. Many of the
geographically dispersed IT assets of DHS are inappropriately
housed in urban office buildings and depend entirely on public
telecommunications infrastructure for interconnectivity. DHS
states that it plans to address these issues through its Infrastructure
Transformation Office effort.

We accept DHS’ response to address these issues through the
Infrastructure Transformation Office.

Recommendation 3: Require that disaster recovery related
documentation for mission critical systems be completed and
conform to current government standards.

The DHS Office of the CIO does not dispute the importance of
having disaster recovery related documentation for mission critical
systems developed to consistent standards.

We accept DHS’ response as to the importance of having adequate
and standardized disaster recovery related documentation.




DHS Disaster Recovery Planning Needs Improvement


                    Page 17
              Appendix A
              Purpose, Scope, and Methodology




Purpose, Scope, and Methodology
              The overall objective of this audit was to evaluate the effectiveness
              of DHS’ acquisition and management of disaster recovery alternate
              sites for the general support systems comprising its network
              backbone. Nineteen DHS facilities were within the audit scope.
              These facilities are the responsibility of:

                  •   Border and Transportation Security
                          o Customs and Border Protection
                          o Federal Law Enforcement Training Center
                          o Transportation Security Administration
                  •   Emergency Preparedness and Response
                          o Federal Emergency Management Agency
                  •   Immigration and Customs Enforcement
                  •   Information Analysis and Infrastructure Protection
                  •   DHS Management Directorate
                  •   The Office of Inspector General
                  •   The United States Coast Guard
                  •   The United States Secret Service

              We reviewed DHS communications diagrams, facility surveys,
              prior audit reports, disaster recovery related documentation, such
              as COOP and contingency plans, and wiring diagrams. Auditors
              performed on-site inspections, interviewed key personnel, and
              contracted for an IV&V assessment of disaster recovery plans and
              tests. OIG auditors and IV&V contractors also observed disaster
              recovery tests. Fieldwork was performed at Washington, DC area
              facilities, as well as at other facilities around the country.




               DHS Disaster Recovery Planning Needs Improvement


                                   Page 18
Appendix A
Purpose, Scope, and Methodology




We provided the CIO and DHS components with briefings and
presentations concerning the results of fieldwork and the
information summarized in this report. Additionally, we provided
comments on other deficiencies observed at the operating facilities,
including:

    •   Servers not backed-up.
    •   Servers not connected to an uninterruptible power supply.
    •   Servers and telecommunications equipment without
        adequate environmental and electrical controls.
    •   Server rooms lacking adequate fire detection or suppression
        systems.
    •   Inadequate storage of backup tapes.
    •   Lack of redundancy in the telecommunications system.
    •   Wiring closets in unsecured locations or without adequate
        environmental controls.
    •   Disaster recovery test not monitored by government
        personnel.

We conducted this audit between November 2003 and December
2004 at various DHS directorate and organizational elements in the
Washington, DC metropolitan area and around the country. We
performed its work according to generally accepted government
auditing standards and pursuant to the Inspector General Act of
1978, as amended.

We appreciate the efforts by DHS management and staff to provide
the information and access necessary to accomplish this audit. The
principal OIG points of contact for the audit are Frank Deffer,
Assistant Inspector General for Information Technology Audits
(202) 254-4100 and Roger Dressler, Director, Information Systems
and Architectures (202) 254-5441. Major OIG contributors to the
audit are identified in Appendix E.




DHS Disaster Recovery Planning Needs Improvement


                    Page 19
Appendix B
Management’s Response




DHS Disaster Recovery Planning Needs Improvement


                    Page 20
Appendix B
Management’s Response




DHS Disaster Recovery Planning Needs Improvement


                    Page 21
      Appendix B
      Management’s Response




(b)
(b)



(b)

(b)




      DHS Disaster Recovery Planning Needs Improvement


                          Page 22
                   Appendix C
                   DHS Facilities Reviewed




                   Recovery Site Status for Selected DHS Facilities

                            Facility
           Component        Servers/
Facility   Responsible     Mainframes         Recovery                 Comments
                                                 Site
   1           A                103/1        No Identified      Relying on DHS-wide
                                              Recovery           initiatives to resolve
                                                 Site                 deficiencies.
   2           A                125/8        No Identified      Relying on DHS-wide
                                              Recovery           initiatives to resolve
                                                 Site                 deficiencies.
   3           A                 4/0          Not Fully        Purchasing necessary IT
                                             Operational                 assets.
   4           B                41/0          Not Fully        Implementing necessary
                                             Operational          recovery strategies.
   5           B                200/0         Not Fully        Implementing necessary
                                             Operational          recovery strategies.
   6           B                32/0         No Identified     Needs to fund additional
                                              Recovery                capabilities.
                                                 Site
   7           C                180/6        Operational     Cannot restore a critical
                                                           system in the required time
                                                                     frame.
   8           D                97/0          Not Fully     Implementing identified
                                             Operational      recovery capabilities.
   9           D                86/0         No Identified    Developing recovery
                                              Recovery             strategies.
                                                 Site
  10           D                27/0         No Identified    Developing recovery
                                              Recovery             strategies.
                                                 Site
  11           D                10/0         No Identified    Developing recovery
                                              Recovery             strategies.
                                                 Site




                    DHS Disaster Recovery Planning Needs Improvement


                                        Page 23
                    Appendix C
                    DHS Facilities Reviewed




           Recovery Site Status for Selected DHS Facilities (Continued)

           Component         Facility         Recovery
Facility   Responsible       Servers/         Site Status              Comments
                            Mainframes
  12            E              97/2           Operational      Implementing a recovery
                                                                  site that is at a more
                                                               acceptable distance from
                                                                  the primary facility.
  13            F                50/0          Not Fully            Needs to purchase
                                              Operational         additional IT assets.
  14            F                94/0         Operational      Implementing a recovery
                                                                  site that is at a more
                                                               acceptable distance from
                                                                  the primary facility.
  15            G                35/0          Not Fully       Needs to fund additional
                                              Operational              capabilities.
  16            G                14/0          Not Fully       Implementing necessary
                                              Operational          recovery strategies.
  17            H                14/0          Not Fully            Needs to purchase
                                              Operational         additional IT assets.
  18            I                45/0          Not Fully        Relying on DHS-wide
                                              Operational         initiatives to resolve
                                                                       deficiencies.
  19            J                19/0         Operational       Additional capabilities
                                                                under consideration for
                                                              implementation following
                                                                 relocation of primary
                                                                          facility.




                    DHS Disaster Recovery Planning Needs Improvement


                                         Page 24
                            Appendix D
                            Disaster Recovery Planning Documents Reviewed




                              Continuity of Operations Documents

                                              Draft      FPC 65
Component             Document Title             /      Compliance                Comments
                                              Final
         B          Component B               Final     Yes               No deficiencies identified.
                    Continuity of
                    Operations (COOP)
                    Plan 1
         C          *Component C              Final     No                On site IV&V revealed
                    COOP Plan 17                                          that the COOP plan
                                                                          contained inaccurate
                                                                          information.
         C          *Component C              Final     No                Did not contain line of
                    COOP Plan 2                                           succession information.
         D          Component D               Draft     Yes               No deficiencies identified.
                    COOP Plan 1
         E          Component E               Final     Yes               Minor comments, for
                    COOP Plan 1                                           example: Vital records
                                                                          and databases not
                                                                          described in sufficient
                                                                          detail.
         F          Component F               Final     Yes                This COOP plan does not
                    COOP Plan 1                                            appear to be a final
                                                                           product. The plan does
                                                                           not provide the inventory
                                                                           of mission critical
                                                                           systems and data
                                                                           necessary to conduct
                                                                           essential operations.
         F          *Component F              Final     Yes               No deficiencies identified.
                    COOP Plan 2
         F          *Component F              Final     Yes               This document is a
                    COOP Plan 3                                           divisional level checklist
                                                                          that was designed to
                                                                          supplement the
                                                                          Component F COOP Plan
                                                                          2.


7
    The OIG’s IV&V contractor reviewed documents that are denoted with an asterisk (‘*’).

                             DHS Disaster Recovery Planning Needs Improvement


                                                  Page 25
                 Appendix D
                 Disaster Recovery Planning Documents Reviewed




              Continuity of Operations Documents (Continued)

                                  Draft      FPC 65
Component    Document Title         /       Compliance               Comments
                                  Final
    I       *Component I          Draft     No               Does not identify essential
            COOP Plan 1                                      functions

    J       Component J           Draft     Yes              No deficiencies identified.
            COOP Plan 1




                  DHS Disaster Recovery Planning Needs Improvement


                                      Page 26
                  Appendix D
                  Disaster Recovery Planning Documents Reviewed




                         Contingency Plan Documents

                                                    NIST
                                  Draft/            SP 800-34
Component Document Title          Final             Compliance        Comments
   A      Component A             Draft             No                Does not contain
          Contingency Plan 1                                          plan activation.
   E      Component E Contingency Draft             No                No Business Impact
          Plan 1                                                      Analysis was
                                                                      provided.
    E      Component E Contingency Draft            No                No Business Impact
           Plan 2                                                     Analysis was
                                                                      provided
    F      Component F Contingency       Final      Yes               Does not include
           Plan 1                                                     recommended
                                                                      appendices (e.g.,
                                                                      vendor contact list,
                                                                      service level
                                                                      agreements,
                                                                      equipment and
                                                                      specifications).
    F      Component F Contingency       Draft      Yes               Does not include
           Plan 2                                                     recommended
                                                                      appendices (e.g.,
                                                                      Emergency
                                                                      Management,
                                                                      Occupant Evacuation
                                                                      and Continuity of
                                                                      Operations plans).
    F      Component F Contingency       Final      Yes               Contingency Plan
           Plan 3                                                     Manager not
                                                                      identified.
    F      Component F Contingency       Final      Yes               Order of succession
           Plan 4                                                     not included.
    F      Component F Contingency       Draft      Yes               Order of succession
           Plan 5                                                     not included.
    F      Component F Contingency       Draft      Yes               Order of succession
           Plan 6                                                     not included.




                   DHS Disaster Recovery Planning Needs Improvement


                                       Page 27
                  Appendix D
                  Disaster Recovery Planning Documents Reviewed




                  Contingency Plan Documents (Continued)

                                                    NIST
                                         Draft/     SP 800-34
Component Document Title                 Final      Compliance        Comments
   F      Component F Contingency        Draft      Yes               Does not include
          Plan 7                                                      recommended
                                                                      appendices (e.g.,
                                                                      Business Impact
                                                                      Analysis, Occupant
                                                                      Evacuation Plan,
                                                                      Emergency
                                                                      Management Plan).
    F      Component F Contingency       Draft      Yes               Does not include
           Plan 8                                                     recommended
                                                                      appendices (e.g.,
                                                                      Business Impact
                                                                      Analysis, Occupant
                                                                      Evacuation Plan, and
                                                                      Emergency
                                                                      Management Plan).
    F      Component F Contingency       Final      Yes               Does not include
           Plan 9                                                     recommended
                                                                      appendices (e.g.,
                                                                      Business Impact
                                                                      Analysis, Occupant
                                                                      Evacuation Plan, and
                                                                      Emergency
                                                                      Management Plan).
    F      Component F Contingency       Final      No                There is no
           Plan 10                                                    designated alternate
                                                                      site.
    F      Component F Contingency       Final      Yes               Does not include
           Plan 11                                                    recommended
                                                                      appendices (e.g.,
                                                                      Business Impact
                                                                      Analysis, Emergency
                                                                      Management Plan,
                                                                      and Occupant
                                                                      Emergency Plan).



                   DHS Disaster Recovery Planning Needs Improvement


                                       Page 28
                            Appendix D
                            Disaster Recovery Planning Documents Reviewed




                            Contingency Plan Documents (Continued)

                                                                NIST
                                                    Draft/      SP 800-34
Component Document Title                            Final       Compliance       Comments
   F      Component F Contingency                   Final       No               This may not be a
          Plan 12                                                                final document as
                                                                                 some appendices
                                                                                 have sections labeled
                                                                                 ‘To Be Determined’
                                                                                 (e.g., Appendix C-
                                                                                 08C).
        G         *Component G                      Draft       Yes              Tape backup
                  Contingency Plan 18                                            procedures were not
                                                                                 defined.
        G         *Component G                      Draft       Yes              Alternate site was
                  Contingency Plan 2                                             not designated.
        I         *Component I                      Final       No               The plan is only
                  Contingency Plan 1                                             designed for local
                                                                                 situations that do not
                                                                                 require the use of an
                                                                                 alternate facility.
        J         Component J Contingency           Final.      No               Order of succession
                  Plan 1                                                         not included.
        J         Component J Contingency           Final       No               Does not contain
                  Plan 2                                                         plan activation.
        J         Component J Contingency           Final       No               Does not contain
                  Plan 3                                                         plan activation.




8
    The OIG’s IV&V contractor reviewed documents that are denoted with an asterisk (‘*’).


                             DHS Disaster Recovery Planning Needs Improvement


                                                  Page 29
Appendix E
Major Contributors To This Report




Information Systems and Architectures Division

Roger Dressler, Director
Kevin Burke, Audit Manager
Karen Nelson, Auditor
Domingo Alvarez, Auditor
Scott Sammons, Auditor
Tim Walton, Referencer




 DHS Disaster Recovery Planning Needs Improvement


                     Page 30
Appendix F
Report Distribution




Department of Homeland Security

Secretary
Deputy Secretary
General Counsel
Under Secretary, Management
DHS GAO/OIG Liaison Officer
DHS Chief Information Security Officer
DHS Office of Security
DHS Public Affairs
CIO Audit Liaison
Director, Compliance and Oversight Program, OCIO


Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Appropriate Congressional Oversight and Appropriations
Committees




 DHS Disaster Recovery Planning Needs Improvement


                      Page 31
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to DHS Office of
Inspector General/MAIL STOP 2600, Attention: Office of Investigations –
Hotline, 245 Murray Drive, SW, Building 410, Washington, DC 20528; fax
the complaint to (202) 254-4292; or email DHSOIGHOTLINE@dhs.gov. The
OIG seeks to protect the identity of each writer and caller.
